PROOF OF SERVICE
I Marcia Croce do swear or declare that on this date,
December 8th 2020, as required by Supreme Court Rule 29
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
Service by first class mail addressed as follows:
Michele Tokarsky
Law Offices of Silverman, Tokarsky and Forman LLC
227 Franklin Street, Suite 410
Johnstown, Pa 15901
(814) 536-8600
Attorney for Respondent

Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Dated: December 8, 2020

L
Marcia Croce
342 Snyder Lane
Blairsville, Pa 15717
(814) 410-5829
Counsel for Petitioner
Marcia Croce, Pro Se

